OIG Investigative Reports, New Kensignton Woman Pleads Guilty to Lying on PHEAA Loan Application
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
MARY BETH BUCHANAN UNITED STATES ATTORNEY WESTERN DISTRICT OF PENNSYLVANIA
U.S. Post Office & Courthouse 700 Grant Street Suite 4000 Pittsburgh, PA  15219 (412) 644-3500
NEW KENSINGTON WOMAN PLEADS GUILTY TO LYING ON PHEAA LOAN APPLICATION
United States Attorney Mary Beth Buchanan announced today, June 17, 2009, that Cassandra Black, a resident of New Kensington, Pennsylvania, pleaded guilty in federal court to a charge of making a false statement in a loan application.
Black, age 63, of 400 Fifth Avenue, New Kensington, Pennsylvania pleaded guilty to one count before United States District Judge Terrence F. McVerry.
In connection with the guilty plea, Assistant United States Attorney Gregory C. Melucci advised the court that Black made false representations on loan applications for PHEAA Plus loans, and forged the signature of another person in order to obtain the loans.
Judge McVerry scheduled sentencing for September 18, 2009 at 10:30 a.m.  The law provides for a total sentence of 30 years in prison, a fine of $1,000,000, or both.  Under the Federal Sentencing Guidelines, the actual sentence imposed is based upon the seriousness of the offense and the criminal history, if any, of the defendant.
Pending sentencing, the court continued Black on bond.
The United States Department of Education, Office of Inspector General conducted the investigation that led to the prosecution of Cassandra Black.
Top
Printable view
Last Modified: 07/22/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov